Office of
INSPECTOR GENERAL




 Audit of the USITC Financial Statements
 for Fiscal Years 1989 and 1990


 Report No. IG-D6-91




                                           July 1991
                                           Date Issued
         I!':SPECfOR GE!':ERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, D.C. 20436



July 12, 1991




                  AUDZT OF THE USZTC PINANC:IAL STATEMENTS
                      POR PZSCAL YEARS 1989 AND 1990

The Budget and Accounting Procedures Act of 1950 states that
agencies must establish and maintain systems of accounting and
reporting that provide for:  complete disclosure of the agency's
financial results; adequate financial information for agency
management and for formulation and execution of the budget; and
effective control over revenue, expenditure, funds, property, and
other assets.
In accordance with a Federal requirement that a detailed evaluation
of agency financial systems shall be conducted on a cyclical basis,
an audit of the USITC financial statements was conducted.       The
objectives of this audit were to issue an opinion as to the
fairness of the USITC financial statements for the fiscal years
ending September 30, 1990, and 1989 in presenting the financial
condition and results of operations; a statement on the adequacy
of internal controls; and a statement on compliance.
The audit was conducted by Cotton & Company in accordance with the
Government Auditing Standards issued by the Comptroller General of
the United States. The auditors expressed the following opinions.
     o       The balance sheets of the USITC as of September 30, 1990,
             and 1989, and the related statements of operations and
             changes in invested capital and changes in financial
             position for the years then ended, present fairly, in all
             material respects, the financial position of the USITC
             as of September 30, 1990, and 1989, and the results of
             its operations and changes in its financial position for
             the years then ended, in conformity with generally
             accepted accounting principles for Federal agencies
             (Attachment 1) .
     o    No matters involving the internal control structure and
          its operation were considered to be material weaknesses,
          although certain matters involving the internal control
          structure and its operation are reported to USITC
          management in a separate letter (Attachments 2 and 4).
     o    For the items tested, USITC complied in all material
          respects with the provisions of applicable laws and
          regulations that could have a material effect on the
          financial statements. For the items not tested, nothing
          came to their attention that caused the auditors to
          believe that USITC had not complied, in all material
          respects, with such provisions (Attachment 3).

As a result of their review, the auditors suggested that the Office
of Management Services 1) exclude from the fixed asset listing it
furnishes to the Office of Finance and Budget all items valued at
less than $5, 000 (unless properly included in accordance with
Federal guidance pertaining to grouped assets) , and 2} prepare and
retain a master property list of items on hand as of September 30,
in addition to the fixed asset list to facilitate the financial
audit and provide for ease of reconciliation in preparing the
financial statements.
The Director of Administration concurred with the findings and
suggestions.   He recommended and we concur that implementation
action on the first suggestion be deferred until the review of the
property management system is completed. The Director's comments
are presented in their entirety as an appendix to the report.

                                        'Xi
                               ;/(£n0 ff~J#O
                             /fane E. Altenhofen
                               Inspector General
                         TABLE OF CONTENTS




Attachments

     1.   USITC Financial Statements as of September 30, 1990, and
          1989 Together with Independent Auditor's Report
     2.   Independent Auditor • s   Report on the   Internal Control
          Structure

     3.   Independent Auditor's Report on Compliance with Laws and
          Regulations

     4.   Management Letter


Appendix - Memorandum from Director, Office of Administration,
           dated June 17, 1991, on Draft Report
                                                        Attachment 1




                          UNITED STATES INTERNATIONAL
                                TRADE COMMISSION


                           FINANCIAL STATEMENTS AND
                         INDEPENDENT AUDITOR'S REPORT
                              FOR THE YEARS ENDED
                         SEPTEMBER 30, 1990, AND 1989




Prepared by:

Cotton & Company
Certified Public Accountants
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
            FINANCIAL STATEMENTS AND INDEPENDENT AUDITOR'S REPORT
               FOR THE YEARS ENDED SEPTEMBER 30, 1990, AND 1989

                                     CONTENTS



Financial Statements and Auditor's Report

     Independent Auditor's Report                                    1

     Balance Sheets                                                  2

     Statements of Operations and Changes in Invested Capital        3

     Statements of Changes in Financial Position                     4

     Notes to Financial Statements                                   5

Independent Auditor's Report on the Internal Control Structure      10

Independent Auditor's Report on Compliance With Laws and
Regulations                                                         12
                                    COTTON &COMI1\NY           CERTIFIED Pusuc AccoUNTMITS
                       100 Sotm-1 RoYAL STREET • AI..ExANoRIA, VIRGINIA 22314 • (703) 836-6701 • Ta.ecoPIER: (703) 836-0941

DAVID L COlTON, CPA                        BRENnA N. BURZENSXI, CPA                                   RoBERT L ft..Est.c:ER. CPA           CATHERISE   L. NOCERA. CPA
CHARLES HAYWARD, CPA                       MlcJ.tAa.. W. GILLESPIE. CPA                               KEVIN P. McFADDEN, CPA               Eu..es P. REm. CPA


                                                                        April 12, 1991


                                                        INDEPENDENT AUDITOR'S REPORT

        The Commissioners
        United States International Trade Commission


             We have audited the accompanying balance sheets of the United States
        International Trade Commission (ITC) as of September 30, 1990, and 1989, and
        the related statements of operations and changes in invested capital and
        changes in financial position for the years then ended. These financial
        statements are the responsibility of ITC management. Our responsibility is to
        express an opinion on these financial statements based on our audits.

             We conducted our audits in accordance with generally accepted auditing
        standards and Government Auditing Standards (1988 revision), issued by the
        Comptroller General of the United States. Those standards require that we
        plan and perform the audits to obtain reasonable assurance that the financial
        statements are free of material misstatement. An audit includes examining, on
        a test basis, evidence supporting the amounts and disclosures in the financial
        statements. It also includes assessing the accounting principles used and
        significant estimates.made by management and evaluating the overall financial
        statement presentation. We believe that our audits provide a reasonable basis
        for our opinion.

             In our opinion, the financial statements referred to above present
        fairly, in all material respects, the financial position of the United States
        International Trade Commission as of September 30, 1990, and 1989, and the
        results of its operations and changes in its financial position for the years
        then ended, in conformity with generally accepted accounting principles for
        Federal agencies.

             This report is intended solely for the information and use of ITC
        management. This restriction is not intended to limit the distribution of the
        report, which, upon ITC acceptance, is a matter of public record.

                                                                             COTTON & COMPANY

                                                                       By:     17//)dlP.
                                                                             Kevin
                                                                                                     v: 7fed
                                                                                                 McFadden, CPA
       mbp

                                                                                     1


                                        MEMBER: AME1ucAN INsrmm: oF CER11FIED Puauc AccoUNTA.-rrs, DMSJON FOR FIRMs

                        n5 Pa.usstm PARKwAY • PEu.~sstwJ CENTER • I<NoXVIU.E, T~ 37922 • (6t5> 675-5775 • Taa:oPIER: (6t5> 675-5779
                                      104 CAR."'ECJJ: C~:NTER • Sum: :! 14 • PRL..'CFTON. NE'.l· IERSEY Oflli43-77R7 • (609) 9'ii-Q41 'i
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                                BALANCE SHEETS
                      AS OF SEPTEMBER 30, 1990, AND 1989


                                    ASSETS

                                                        1990            1989


Current assets
     Obligated funds with U.S. Treasury             $ 3,449,084    $ 2,783,592
     Receivables                                         28.607         27.354
     Total current assets                           $ 3,477,691    $ 2,810,946
Furniture, equipment, and leasehold improvements      9.094.077      8.593.944

Total assets                                       §12 1 57l.z68   §11.404.890


                    LIABILITIES AND U.S. GOVERNMENT EOUITX
Current liabilities
     Accounts payable                              $   590,003     $   508,920
     Accrued payroll and benefits                    1,460,752       1,416,864
     Accrued unfunded annual leave and benefits      1.935.365       1.759.146
     Total liabilities                             $ 3,986,120     $ 3,684,930

Commitments and contingencies (Notes 4 and 6)

U.S. Government equity
     Unexpended appropriations                     $ 1,426,936     $     885,161
     Invested capital                                  7.158.712       6.834.799
     Total U.S. Government equity                  s   8.585.648   s   7.719.960

Total liabilities and U.S. Government equity       §12.571.768     §11.404.890




    The accompanying notes are an integral part of these balance sheets.


                                      2
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
           STATEMENTS OF OPERATIONS AND CHANGES IN INVESTED CAPITAL
               FOR THE YEARS ENDED SEPTEMBER 30, 1990, AND 1989

                                                         1990           1989

Appropriations expended and revenues                $37,034,057     $35,822,933

Expenses
     Salaries                                       $21,390,761     $20,052,715
     Personnel benefits                               3,674,629       3,294,629
     Travel expenses                                    530,516         618,851
     Rental and communications services               7,193,475       7,190,778
     Other services                                   2,616,759       2,671,095
     Printing and reproduction                          193,444         228,073
     Supplies and materials                             639,696         760,501
     Equipment                                          410,864         190,392
     Total expenses                                 $36,710,144     $35,601,034

Appropriations expended and revenues in
 excess of expenses                                 $     323,913   $     215,899

Invested capital, beginning of fiscal year              6,834,199       6,618,900

Invested capital, end of fiscal year                § 7.158.712     § 61834.799




       The accompanying notes are an integral part of these statements.

                                       3
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                  STATEMENTS OF CHANGES IN FINANCIAL POSITION
               FOR THE YEARS ENDED SEPTEMBER 30, 1990, AND 1989


                                                        1990            1989

Obligated funds with U.S. Treasury, beginning of
 fiscal year (Note 2)                               $2,783,592     $4,480,873

Sources of funds:
     Excess of revenues over expenses               $   323,913    $     215,899
     Increase in accounts payable                        81,083
     Increase in accrued payroll                         43,888          113,725
     Increase in accrued leave                          176,219          134,000
     Increase in unexpended appropriations              541,775
     Decrease in receivables and advances                                 28.407
     Total sources of funds                         $1,166,878     $     492,031

Use of funds:
     Increase in furniture, equipment, and
       leasehold improvements, net                  $   500,133    $     349,897
     Decrease in unexpended appropriations                             1,631,076
     Increase in receivables and advances                 1,253
     Decrease in accounts payable                                     208.339
     Total use of funds                             s   501.386    $2.189.312

Obligated funds with U.S. Treasury,
 end of fiscal year                                 §3.449.084     §2!783.592




      The accompanying notes are an integral part of these statements.

                                      4
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                            NOTES TO FINANCIAL STATEMENTS
                         AS OF SEPTEMBER 30, 1990, AND 1989

1.   ORGANIZATION
     The United States International Trade Commission (ITC) is an independent
agency of the executive branch of the Federal Government created by an act of
Congress. ITC conducts investigations and, where appropriate, makes
determinations and recommendations or takes action in cases where trade
practices are deemed unfair or injurious to United States industries. ITC is
headed by six commissioners appointed by the President and confirmed by the
U.S. Senate for 9-year terms. From among the commissioners, the President
designates the chairman and vice chairman, who each serve 2-year terms.


2.   SIGNIFICANT ACCOUNTING POLICIES

      Basis of Accounting

     ITC's financial statements are presented on the accrual basis of
accounting and prepared in accordance with Title 2, GAO Policy and Procedures
Hanual for Guidance of Federal Agencies, which is substantially equivalent to
generally accepted accounting principles established by the Financial
Accounting Standards Board and Government Accounting Standards Board, except
for the nondepreciation and nonamortization of furniture, equipment, and
leasehold improvements. ITC's fiscal year is October 1 to September 30.

     Revenue Recognition--Expended and Unexpended Appropriations

     Appropriations expended are recognized when expenses are incurred.
Unexpended appropriations are recorded as equity of the U.S. Government.

     Obligated Funds with the U.S. Treasury

     Obligated funds with the U.S. Treasury represent all funds in the custody
of the U.S. Treasury that are available for payment of items for which ITC has
obligated itself. ITC's obligated balances are carried forward until goods or
services are received and payment is made or until such time as the funds are
deobligated.

     Property and Equipment

     Property and equipment additions are recorded at cost. Property and
equipment transferred to ITC from other Federal agencies is stated at original
cost in accordance with Title 2. Assets are carried at original cost until
ITC disposes of them. Depreciation is not provided over the useful lives of
the fixed assets.




                                         5
     Assets with no documentation supporting the original purchase price have
been recorded at an estimate of their original cost.

      Leasehold Improvements

     As discussed in Note 4, ITC leases its office and storage facilities
under cancelable agreements from the General Services Administration (GSA).
The costs of leasehold improvements performed by GSA but financed by ITC are
capitalized.

      Accrued Unfunded Annual Leave and Benefits

     Annual leave is accrued as it   is earned, although it is not funded until
taken. The accrual is relieved as    leave is taken. Sick leave and certain
other types of leave, which do not   vest, are expensed as taken. Unfunded
benefits represent the accrual for   unfunded workers' compensation liability.

      Invested Capital

     Invested capital represents U.S. Government resources invested in
furniture, equipment, and leasehold improvements, net of the accrued unfunded
annual leave and benefits.


3.   ACCOUNTING FOR INTERGOVERNMENTAL ACTIVITIES

     Certain Federal agencies make financial decisions and report certain
financial matters on behalf of the U.S. Government as a whole, including
matters to which individual agencies may be an indirect party in interest.
However, Federal agencies record or report only those Government-wide
financial matters for which they are directly responsible and seek to identify
financial matters with the department or agency that has been granted budget
authority and resources to manage them.

     The following summarizes financial matters that are either maintained or
reported by other Federal agencies in which ITC is indirectly involved:

     •    Although ITC funds a portion of pension benefits for its
          employees under the Civil Service Retirement System (CSRS) and
          the Federal Employees Retirement System (FERS) and makes the
          necessary payroll withholdings, it is not responsible for
          contribution refunds, employee pensions, or the system's
          assets. It therefore does not disclose the assets of the CSRS
          or the FERS in its financial statements nor does it disclose
          actuarial data with respect to accumulated plan benefits or the
          unfunded pension liability relative to its employees.
          Reporting such amounts is the responsibility of the U.S. Office
          of Personnel Management.

     •    Certain legal matters to which ITC may be a named party are
          administered and, in some instances, litigated by other Federal


                                        6
           agencies, and amounts to be paid under any decision settlement
           or award pertaining thereto are generally funded by those
           agencies. In most cases, tort claims, including personal
           injury claims, are administered and resolved by the U.S.
           Department of Justice, and any amounts necessary for resolution
           are obtained from a special fund maintained by the U.S.
           Treasury. Similarly, legal actions that may have a material
           effect on the financial statements brought by employees of ITC
           are covered by the Federal Employees Compensation Act, which is
           administered by the U.S. Department of Labor. The cost of
           administering, litigating, and resolving these legal matters,
           including payment of any damages, has not been allocated to
           individual Federal agencies.


4.   LEASING ARRANGEMENTS

     All office and storage space is leased through GSA, which is also a
Federal agency. GSA charges ITC for the cost of the lease plus an
administrative charge. Expenses for office space during 1990 and 1989 were
$6,090,139 and $6,082,473, respectively.

    All equipment leases in existence during 1990 and 1989 are cancelable
annually. Lease terms run concurrent with ITC's fiscal year.


5.   EMPLOYEE BENEFIT PLANS

      ITC's employees are covered by the CSRS or the FERS. Under CSRS, ITC
withholds 7 percent of the employees' gross earnings for retirement and 1.45
percent for Medicare. The employees' contribution is then matched by ITC.
The 7 percent and ITC-matching funds are transferred to the Civil Service
Retirement Fund, from which this employee group will receive retirement
benefits; the 1.45 percent and matching funds are transferred to the Social
Security Administration (SSA) from which employees will receive Medicare
coverage.

     Federal employees first hired on or after January 1, 1984, are covered by
full Social Security and the FERS. ITC withholds full Social Security in
addition to FERS withholdings described here; ITC also matches the employees'
withholding, except for the limitation explained below for the Thrift Savings
Plan. ITC withheld approximately 0.94 percent of gross earnings for FERS
contributions to the Basic Benefit Plan in 1989; the withholding percentage
was reduced to 0.83 percent for 1990. The FERS also has a tax-deferred
savings plan, the Thrift Savings Plan, in which employees may participate.
This allows employees to defer up to 10 percent of their salaries; ITC matches
contributions up to 5 percent. Amounts withheld and matched by ITC are
forwarded, as appropriate, to SSA, the FERS (managed by the Office of
Personnel Management), or the Federal·Retirement Thrift Investment Board.




                                       7
6•   COMMITMENTS AND CONTINGENCIES

     ITC is committed under obligations incurred for goods or services ordered
but not yet received. Aggregate orders not received at September 30, 1990,
and 1989, reflected as unexpended appropriations in the accompanying financial
statements, amounted to approximately $1.4 million and $0.9 million,
respectively.


7.   APPROPRIATIONS FOR 1991

     Congress appropriated $38,477,000 and $35,958,000 to ITC for general
operations for 1990 and 1989, respectively. Congress has appropriated
$40,299,000 to ITC for Fiscal Year 1991.


8.   RECONCILIATION TO BUDGET REPORTS

     The Statement-of Reconciliation to Budget Reports that follows is
designed to serve two purposes. It reconciles expenses on the accrual basis
to outlays reported to the U.S. Treasury by eliminating the impact of accrual
transactions (i.e., through adjustments for increases or decreases in asset
and liability accounts) and by adding or subtracting other transactions that
impact outlays. The reconciliation also shows the relation of obligations and
offsetting collections to outlays together with the impact of changes in the
obligated fund balance. This format is designed to coincide with the budget
activity reported by the U.S. Office of Management and Budget.




                                        8
                 STATEMENT OF RECONCILIATION TO BUDGET REPORTS
               FOR THE YEARS ENDED SEPTEMBER 30, 1990, AND 1989


                                                     1990            1989

Relation of Expenses to Outlays
     Expenses                                     $36,710,144     $35,607,034
     Adjustments
          Capital expenditures and increase in
            accounts receivable                       205,497         548,960
          Increase in liabilities, net of
            deposit funds                             (301,190)       (39,386)
          Transactions included/excluded from
            budget reports                            375.058          10.744
     Total cash outlays                           $36,989,509     $36,127,352
     Offsetting collections credited                   27.923               0

    Net outlays, per budget report                $36.961.586     $36.127.352

Relation of Obligations to Outlays
     Obligations incurred                         $37,665,854     $35,410,921
     Offsetting collections                           (21.923)              0
     Obligations incurred, net                    $37,637,931     $35,410,921

    Obligated funds with U.S. Treasury,
     October 1, 1989, and 1988                    $ 2,783,592     $ 4,480,873
    Obligated funds with U.S. Treasury,
      September 30, 1990, and 1989                 (3,449,084)     (2,783,592)
    Adjustments to unexpired accounts                 (10.853)       (980.850)

    Net outlays, per budget report                §36.961.586     §36.127.352




                                      9
                                                                                                                          Attachment 2

                                      COTTON &COMI'l\NY       CERTIFIED Pusuc AccolWI"ANTS
                         100 SoliTH RoYAL STRECT • Al..exANoRJA, VmciNIA 22314 • (703) 836-6701 • TB..EcoPIER: (703) 836-0941

DAVID L COTTON, CPA                          BRE.NoA N. 8URZENSKI, CPA                         RoBERT L. Fl..EsHER, CPA                      CA11iERINE L. NOCERA, CPA
CHARJ..ES HAYWARD, CPA                       MJCHAEL W. GIU.ESPIE. CPA                         KJM.. P. McFADDEN, CPA                        Eu.EN P. REm. CPA


                                                                      April 12, 1991



                          INDEPENDENT AUDITOR'S REPORT ON THE INTERNAL CONTROL STRUCTURE

          The Commissioners
          United States International Trade Commission


               Ye have audited the financial statements of the United States
          International Trade Commission (ITC) for the years ended September 30, 1990,
          and 1989, and have issued our report thereon dated April 12, 1991.

               Ye conducted our audit in accordance with generally accepted auditing
          standards and Government Auditing Standards (1988 revision), issued by the
          Comptroller General of the United States. Those standards require that we
          plan and perform the audit to obtain reasonable assurance that the financial
          statements are free of material misstatement.

               In planning and performing our audit of ITC's financial statements for
          the years ended September 30, 1990, and 1989, we considered its internal
          control structure to determine our auditing procedures for the purpose of
          expressing our opinion on the financial statements and not to provide
          assurance on the internal control structure.

               ITC's management is responsible for establishing and maintaining an
          internal control structure. In fulfilling this responsibility, estimates and
          judgments by management are required to assess the expected benefits and
          related costs of internal control structure policies and procedures. The
          objectives of an internal control structure are to provide management with
          reasonable, but not absolute, assurance that assets are safeguarded against
          loss from unauthorized use or disposition, and that transactions are executed
          in accordance with management's authorization and recorded properly to permit
          the preparation of financial statements in accordance with generally accepted
          accounting principles. Because of inherent limitations in any internal
          control structure, errors or irregularities may nevertheless occur and not be
          detected. Also, projection of any evaluation of the structure to future
          periods is subject to the risk that procedures may become inadequate because
          of changes in conditions or that the effectiveness of the design and operation
          of policies and procedures may deterforate.

               For the purposes of this report, we classified the significant internal
          control structure policies and procedures into the following categories:

                                                                                 10


                                           .MEMBER: AMaucAN lNsTrnrrc oF CERTIFIED Pusuc AccoUNTANTS, DMSION FOR Fuu.ts

                          725 PEu..JssJw. PARXWAY. Pa.usszm CENTER. 'I<Noxvnu. TENNESSEE 37922. (615) 675-5775. TELB:OPIER: (615) 675-5779
                                         104 CARNEGIE CENTER • Surre 214 • PluNarrON, NEW ]ERSEY 08543-7787 • (609) 951-9415
purchasing, payroll, property management, and financial reporting. For all of
these internal control structure categories, we obtained an understanding of
the design of relevant policies and procedures, determined if they had been
placed in operation, and assessed control risk.

     Our consideration of the internal control structure would not necessarily
disclose all matters that might be material weaknesses under standards
established by the American Institute of Certified Public Accountants. A
material weakness is a reportable condition in which the design or operation
of one or more of the specific internal control structure elements does not
reduce to a relatively low level the risk that errors or irregularities in
amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions. We noted no matters
involving the internal control ·structure and its operation, however, that we
consider to be material weaknesses as defined above.

     We did, however, note certain matters involving the internal control
structure and its operation that we have reported to ITC management in a
separate letter.

     This report is intended solely for the information and use of ITC's
management. This restriction is not intended to limit the distribution of the
report, which, upon ITC acceptance, is a matter of public record.



                                      COTTON & COMPANY



                                By:   (}:{J$   Y!_ffkq/
                                      Kevin P. McFadden, CPA




                                        11
                                                                                                                             .2-\.ttachrnent 3

                                     COTTON &COMI1\NY       CERTIFIED Pusuc AccoUNTANTS
                        100 SoUTH RoYAL STREET •      ALExANDRIA,   VmctNIA 22314 • (703) 836-6701 • TELEcOPIER: (703) 836-0941

0Avm L   COTrCN, CPA                       BRENDA N. BuRZENSKr, CPA                          ROBERT L Fl.EstmR, CPA                   CATHERINE  L NOCERA. CPA
CHAJUJ:S HAYWARD, CPA                      MtOiAEL W. GrwsPIE, CPA                           KJMN P. McFADDEN, CPA                    Eu.EN P. REm. CPA

                                                                    April 12, 1991



                   INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE VITH LAVS AND REGULATIONS


           The Commissioners
           United States International Trade Commission


                We have audited the financial statements of the United States
           International Trade Commission (ITC) for the years ended September 30, 1990,
           and 1989, and have issued our report thereon dated April 12, 1991.

               We conducted our audit in accordance with generally accepted auditing
          standards and Government Auditing Standards (1988 revision), issued by the
          Comptroller General of the United States. These standards require that we
          plan and perform the audit to obtain reasonable assurance that the
          aforementioned financial statements are free of material misstatement.

               Compliance with applicable laws and regulations is the responsibility of
          ITC management. As part of obtaining reasonable assurance that the financial
          statements are free of material misstatement, we performed tests of ITC's
          compliance with certain provisions of laws and regulations. Our objective was
          not, however, to provide an opinion on overall compliance with such
          provisions.

               The results of our tests indicate that, for the items tested, ITC
          complied in all material respects with the provisions of applicable laws and
          regulations that could have a material effect on the financial statements.
          For the items not tested, nothing came to our attention that caused us to
          believe that ITC had not complied, in all material respects, with such
          provisions.

               This report is intended solely for the information and use of ITC
          management. This restriction is not intended to limit the distribution of the
          report, which, upon ITC acceptance, is a matter of public record.

                                                                         COTTON & COMPANY



                                                                   By:~:r?~
                                                                    Kevin P. McFadden, CPA


                                                                               12




                         725 ~PARKWAY. Pa..usslm Ca.rn:a. I<Noxvu.u:, TENNESSEE 37922 • (615) 675-5775 • TELECOPIER: (615) 675-5779
                                       104 CARNEGIE Ca.rn:a • Sum: 214 • PtuNcrroN. New )atSEY 08543-778i • (609) 951-9415
                                                                                                                              Attachment 4

                                     COTTON &COMPANY          CERTIFIED Puauc AccolWTANTS
                        100 Sotm-1 RoYAL STREET • Ai..ExANoRIA, VIRclNlA 22314 • (703) 836-6701 • TEI..ECoPIER: (703) 836-0941

DAVID L   COlTON, CPA                        BRENDA N. BuRZENSKJ, CPA                            RosatT L. fi.EsHER. CPA                        CATHERI!Io'E L NOCERA. CPA
CHAIU.ES HAYWARD. CPA                        M10iAEL W. Gll..LESPIE. CPA                         I<EvL-: P. McFADD£N, CPA                       Eu.eN P. REm. CPA


                                                                       April 12, 1991



            The Commissioners
            United States International Trade Commission


                 In planning and performing our audits of the United States International
            Trade Commission's {ITC) financial statements for the years ended September
            30, 1990, and 1989, we considered its internal control structure in determin-
            ing our audit procedures for the purpose of expressing our opinion on the
            financial statements. Although our purpose was not to provide assurance on
            the internal control structure, certain matters came to our attention that we
            want to report to you for your consideration. These matters, together with
            our suggestions, are described on the accompanying page.

                    These matters were discussed with the appropriate ITC management person-
            nel.     Their written comments are included as an attachment to this letter.

                 This letter is intended solely for the information and use of ITC
            management.

                 We would like to express our appreciation to ITC representatives who
            assisted us in completing our audits. As always, they were courteo~s and
            professional in their dealings with our staff.

                                                                              Very truly yours,

                                                                              COTTON & COMPANY



                                                                       By:&, f?~d
                                                                              Kevin P. McFadden, CPA




                                           MEMBER: AMERICAN   INSTTTUTE oF   CERTIFIED Pusuc Accou"lTANTS. OMSrON FOR FIRMs

                         725 Pw..lsstwr PARKWAY. Pw.iss1wr CfHTER. I<NoXVII.LE, TENNESSEE 37922. (615) 675-5715 • TELECOptER.: (615) 675-5779
                                         104 .CARNEGIE Ce-rrER. • Sum 214 • PluNCETos. NE'Il· )ERSEY 08543-7787 • (609) 951-9415
                             Fixed Asset Reporting


     ITC maintains a fixed asset list to support capitalized asset amounts
included in the financial statements. This listing is generated from a data
base that also includes personal property being accounted for as part of ITC's
property management system. The fixed-asset listing includes items valued at
well below the $5,000 capitalization threshold included in Title 2, GAO Policy
and Procedures Manual for Guidance of Federal Agencies.

      ITC staff advised us that the agency currently recognizes the GAO
criteria, but includes items valued at less than $5,000 on the fixed-asset
listing, because they were added in the past when a lower criterion was
followed. Many of these items should be included in the property management
system, because they exceed ITC's $300 property accountability threshold. It
is neither necessary nor cost effective, however, to continue to include these
items on the fixed-asset listing.

     We suggest that the Office of Management Services (OMS} exclude from the
fixed asset listing it furnishes to the Office of Finance and Budget (OFB},
all items valued at less than $5,000 (unless properly included in accordance
with GAO Title 2, Section P40.08 pertaining to grouped assets).


          Reconciliation of Fixed Asset List to Master Property List

     As described above, ITC maintains a data base as part of its property
management system. Shortly after the close of the fiscal year, OMS provides
OFB with a list of capitalized fixed assets on hand as of September 30. As
part of our audit, we were provided a master property list to test the
September 30, 1990, fixed-asset list for completeness; this master list was
dated January 10, 1990. This comparison would be easier and more meaningful
if the master property list coincided with the fixed-asset list.

     This practice did not cause the account balance to be misstated. To
facilitate the financial audit and provide for ease of reconciliation in
preparing the financial statements, however, we suggest that OMS prepare and
retain a master property list of items on hand as of September 30, in addition
to the fixed-asset list.


                             Commission Comments

     The Office of Administration concurred with the above suggestions. With
respect to fixed asset reporting, it recommended that implementation action be
suspended pending the results of the Inspector General's property management
system review.
                                                                  Appendix
                                                            AD-0-393




UNITED STATES INTERNATIONAL TRADE COMMISSION

                      v\"ASHI:\GTO:\. DC :!0436




 June 17, 1991

 MEMORANDUM


 TO:           Inspector General

 FROM:         Director, Office of   Administratio~;;J~~}/.~
 SUBJECT:      Draft Report: "Audit of the USITC Financial Statements
               for Fiscal Years 1989 and 1990"


       As requested by your memorandum dated May 20, 1991 (IG-0-048),
 submitted herewith is the Office of Administration's response to the
 subject draft audit report issued in May 1991. In accordance with
 Section 11 of the USITC Directive 1701, the Commissioners have had
 an opportunity to comment on the response and the Acting Chairman has
 approved it.

       Our response is attached.       Please call me at 252-1131 if you
 have any questions.




 Attachment
 cc:     Commission
         Director, Office of Finance and Budget
         Director, Office of Management Services
              Audit of the Pinancial statements
               ror Piscal Years 1989 and 1990"
       (DRAPT Znspector General report dated 5/20/91)
The audit's Attachment 4, constituting a management letter to the
USITC Commissioners, contains two suggestions from the firm Cotton
& Company. The Office of Administration's comments on these
suggestions are as follows:

1.    Fixed asset reporting: •ve suggest that the Office of
      Management Services (OMS) exclude from the fixed asset
      listing its furnishes to the Office of Finance and Budget
      (OFB), all items valued at less than $5000 (unless properly
      included in accordance vith GAO Title 2, Section P40.08
      pertaining to grouped assets)."

      The Office of Administration concurs vith this suggestion.
      However, it is recommended that implementation action be
      postponed until the results of Inspector General's review of
      the ITC lroperty Management System has been completed (the
      final report is currently scheduled for 9/25/91). Ve expect
      that further observations will be made in that audit
      concerning the manner in which property should be tracked.

2.    Reconciliation of fixed asset list to master property list:
      " .•• the ma~ter property list (should) coincide (d) with the
      fixed asset list."

Aqree. The two lists vill be prepared as of September 30 of each
year in the future.
